APGFCU® Cash Back Credit Card Disclosure
Statement and Agreement
In this Agreement the words “you” and “your” mean each and all of those who
apply for the card or use the card. “Card” means the Cash Back Visa® Credit
Card and any duplicates and renewals we issue. “Account” means your APGFCU
Cash Back Visa Credit Card Line of Credit account with us. “We,” “us” and
“ours” means Aberdeen Proving Ground Federal Credit Union (APGFCU). By
signing, using or accepting the APGFCU Cash Back Visa Credit Card, you
acknowledge receipt of this Agreement and agree to terms herein.
1. Responsibility: If we issue a card, you agree to repay all amounts
advanced to you, any fees or charges and the FINANCE CHARGE arising from
the use of the card and the card account. For example, you are responsible for
charges made by yourself, your spouse and minor children and anyone else to
whom you give the card. You may request additional cards for individuals you
designate as authorized users. You are responsible to repay all amounts
advanced by authorized users, any fees or charges and the FINANCE CHARGE
arising from their use of the card. If you notify us that someone you have given
your card is not authorized to use it any more, we will cancel the card. You will
remain liable for the charges they make until the time we cancel the card. You
cannot disclaim responsibility by notifying us, but we will close the account for
new transactions if you so request. Your obligation to pay the account balance
continues even though an agreement, divorce decree or other court judgments
to which we are not a party may direct you or one of the other persons
responsible to pay the account.
2. Lost Card Notification: If you believe the card has been lost or stolen,
you should immediately call the Credit Union during business hours at 410272-4000 or toll-free at 1-800-225-2555.
3. Liability for Unauthorized Use: You may be liable for the unauthorized
use of your card. You agree to notify us immediately in the event of the loss,
theft or unauthorized use of your card by telephone at 410-272-4000 or tollfree at 1-800-225-2555 or by writing APG Federal Credit Union, P.O. Box 1176,
Aberdeen, MD 21001. Until you do, you may have to pay up to $50 for the
purchases and/or cash advances made by anyone who used your card without
your permission. You may also be liable for the unauthorized use of convenience
checks.
4a. Credit Line: If we approve your application, we will establish a selfreplenishing Line of Credit for you and notify you of its amount when we issue
the card. You agree not to let the account balance exceed this approved Credit
Line. Each payment you make on the account will restore your Credit Line by
the amount of the payment which is applied to principal. You may request an
increase in your Credit Line by written application, or telephone call to us at
1-800-225-2555, which must be approved by us. By giving you written notice,
we may reduce your Credit Line from time to time, or, with good cause, revoke
your card and terminate this Agreement. Upon revocation of your card any
outstanding balance and FINANCE CHARGE shall immediately become due and
payable under the terms of this Agreement. Good cause includes your failure
to comply with this Agreement, our adverse reevaluation of your creditworthiness
or your use of this card in furtherance of any purpose deemed to be illegal
under state or federal law. You may also terminate this Agreement at any time,
but termination by either of us does not affect your obligation to pay the
account balance and FINANCE CHARGE arising from authorized use of the
card. The cards remain our property and you must recover and surrender to us
all cards upon our request and upon termination of the Agreement.
4b. Balance Transfers: Balance transfers are a feature of your card, which
you may access anytime or during promotions we may offer from time to time.
You may transfer balances from other creditors up to your available credit limit.
Balances you transfer from other creditors will be treated as cash advances for
the purpose of this agreement and will be subject to your standard cash
advance APR unless a promotional APR applies. Any balance transfer
promotional offers will describe the terms and conditions of the offer. Balance
transfers may not be used to pay any amount owed to us on this credit card
agreement or any other APGFCU credit card or loans you may have with us. If
you transfer your balances you may lose your grace period on purchases.

5. Checking Overdraft Protection: This Cash Back Visa Credit Line also
allows you to overdraft your checking account for any lawful purpose except for
payment to this Cash Back Visa Credit Card account and shall be subject to
service charges in accordance with the rate schedules disclosed in the Cash
Back Visa Credit Card Application, Cash Back Visa Credit Approval Letter, and/or
Cash Back Visa Credit Card Disclosure Statement and Agreement. We will credit
to your checking account, in multiples of $50, an amount (the advance)
sufficient to permit us to honor such check. Such credit advances are considered
by us as cash advances and are subject to the terms and conditions concerning
cash advances in this Agreement.
6. Credit Information: You authorize us to investigate your credit standing
including your ability to pay, obtain and verify credit reports and other
information about you when opening, renewing or reviewing your account, and
you authorize us to disclose information regarding your account to credit
bureaus and other creditors who inquire of us about your credit standing,
subject to applicable law.
You agree that we will give information about the Account to credit reporting
agencies. We will tell a credit reporting agency if you fail to comply with any
term of this Agreement. This may have a negative impact on your credit report.
7. Monthly Payment: We will mail you a statement every month showing your
Previous Balances of purchases, cash advances, balance transfers and earned
cash back awards; the current transactions on your account; the remaining
credit available under the Credit Line; the New Balances of purchases, cash
advances and balance transfers; the New Balance Total; the FINANCE CHARGE
due to date; any other billed fees; and the Minimum Payment required. Each
month, you must pay at least the Minimum Payment within 25 days of your
statement closing date. You may authorize us to charge the Minimum Payment
automatically to your share account with us. You may, of course, pay more
frequently, pay more than the Minimum Payment, or pay the Total New Balance
in full, and you will reduce the FINANCE CHARGE by doing so.
The Minimum Payment on your account will be either (a) 2.0% of your Total
New Balance, or $25, whichever is greater, or (b) your Total New Balance, if it
is less than $25 plus (c) any portion of the Minimum Payment(s) shown on prior
statement(s) which remains unpaid. In addition, at any time your Total New
Balance exceeds your Credit Line, you must immediately pay the excess without
our demand.
Subject to applicable law, your payments may be applied to what you owe the
Credit Union in any manner the Credit Union chooses. However, in every case,
in the event you make a payment in excess of the required minimum periodic
payment, the Credit Union will allocate the excess amount first to the balance
with the highest annual percentage rate and any remaining portion to the other
balances in descending order based on applicable annual percentage rate.
8. Irregular Payments: We can accept late payments, partial payments,
checks and money orders marked “paid in full” or language having the same
effect without losing any of our rights under this agreement.
9. Finance Charge: You can avoid the FINANCE CHARGE on purchases by
paying the full amount of the New Balance Total each month within 25 days of
your statement closing date. Otherwise, the New Balance, including purchases,
cash advances, and subsequent purchases from the date they are posted to
your account, will be subject to the FINANCE CHARGE. Cash advances, balance
transfers, convenience checks are always subject to the FINANCE CHARGE from
the date they are posted to your account.
The FINANCE CHARGE (interest) is calculated on the average daily principal
balances of purchases and cash advances in the account at the daily periodic
rate and corresponding Annual Percentage Rate disclosed in the Cash Back Visa
Credit Card Approval Letter.
The principal balances of purchases, cash advances and balance transfers are
determined each day during the statement period, beginning with the principal

Page 1 of 4

portion of your Previous Balances, reduced by payments you make and credits
we apply, and increased by purchases, cash advances and balance transfers you
make and debit adjustments we make during the statement period. The daily
principal balances are totaled and divided by the number of days in the statement
period, to produce separate average daily principal balances for purchases, cash
advances and balance transfers to which the periodic rate is then applied.
10. Variable APR Based on Prime: Your Annual Percentage Rate is based on
the U.S. Prime Rate (“Prime Rate”). Your Annual Percentage Rate will equal the
Prime Rate plus a margin. If the Prime Rate increases, it will cause the Annual
Percentage Rate to increase. If the Prime Rate decreases, it will cause the
Annual Percentage Rate to decrease. Your FINANCE CHARGE for every $1.00 in
your daily balance may increase if the Prime Rate rises and will decrease if the
Prime Rate falls. For example, a change in the Prime Rate of one percentage
point will result in a one percentage point change in the same direction in your
Annual Percentage Rate with a corresponding change in your daily periodic rate.
For each billing period, we use the Prime Rate published in The Wall Street
Journal on the first business day of each month. If the Prime Rate causes an
Annual Percentage Rate to change, we put the new Annual Percentage Rate into
effect as of the first day of the billing period following the month in which the
Prime Rate changed. We apply the new Annual Percentage Rate to any existing
balance, subject to any promotional rates that may apply.
The Cash Back Visa margin is determined based on an evaluation of each
member’s credit history. The margin will range from 7.99% to 14.24%.
The Annual Percentage Rate will not increase to more than 18% (or such other
rates as may be permitted under the Federal Credit Union Act).
Your Annual Percentage Rate may also change in the event that you request and
are approved for an increase or decrease in your Credit Line or request and are
approved to change your credit product.
11. Military Lending Act: Federal law provides important protections to
members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: the costs associated with credit insurance premiums or debt
protection fees; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). To receive this
notice verbally, please call 800-225-2555 24 hours a day, 7 days a week.
Certain contractual provisions, as more fully set forth in 32 C.F.R. Section 232.8,
are not permitted in loan agreements with borrowers covered by the Military
Lending Act (MLA). To the extent that any of those provisions are contained in
these disclosures, they shall be inapplicable to covered borrowers under the
MLA.
12. Late Charge: If you fail to pay the minimum on your account within fifteen
(15) days of the payment due date, a late payment charge will be assessed and
added to your account.
13. Fees: The Cash Back Visa Card account shall be subject to service charges
in accordance with the rate schedules disclosed in the Cash Back Visa Credit
Card Application, Cash Back Visa Credit Approval Letter, and/or Cash Back Visa
Credit Card Disclosure Statement and Agreement. If you request photocopies of
sales slips, duplicate copies of monthly billing statements or a replacement card,
you agree to pay our reasonable costs for such services. The present charges
for these services are stated specifically in the current Service Price List. You can
pick one up in any branch or call us and we’ll mail a copy to you.
14a. Default: You will be in default if you fail to make the minimum payment
within 25 days after your monthly statement closing date. You will also be in
default if: (a) you breach any other conditions of the Agreement; (b) bankruptcy
or insolvency proceedings are started by you or against you; (c) if we determine
your creditworthiness (which includes your ability to repay us) has become
unsatisfactory due to change in employment, increase in your other obligations,
or because of any other reason; (d) in the event of your death; (e) your use
of the card in furtherance of any purpose deemed to be illegal under state or

federal law; or (f) we discover at any time that you provided false or fraudulent
information in your credit application.
In the event of any default or in the event this Agreement is terminated by you
or by us for any reason, the entire balance on the Account becomes due and
payable forthwith. You also agree that, in case of default, you will pay all usual
and customary costs of collection permitted by law, including court costs and
reasonable attorney fees. You agree that the jurisdiction in any dispute or for
any collection purposes will be in the State of Maryland.
14b. Penalty APR: The Penalty APR may be applied to your account if you:
• Are over 60 days past due or
• Make a payment that is returned and causes your account to be over 60
days past due.
The penalty APR is 18.00% (or such other rates as may be permitted under the
Federal Credit Union Act). If the penalty APR is applied to your account, it will
apply to both existing and new transactions. It will no longer apply to existing
transactions if you make the next six consecutive minimum payments. If you
do not make these six consecutive minimum payments, the Penalty APR may
continue to apply to both new and existing balances indefinitely.
15. Using the Card: You must sign your card to use it. To make a purchase
or cash advance, there are two alternative procedures to follow. One is for you
to present the card to a participating Visa plan merchant, to us or to another
financial institution. You may be required to sign the sales or cash advance draft.
The other is to complete the transaction by using your Personal Identification
Number (PIN) in conjunction with the card in an Automated Teller Machine (ATM)
or other type of electronic terminal that provides access to the Visa system. ATM
transactions are subject to cash advance fees.
The monthly statement will identify the merchant, electronic terminal or financial
institution at which transactions were made, but sales, cash advance, credit or
other slips cannot be returned with the statement. You should retain the copy of
such slips furnished at the time of the transaction in order to verify the monthly
statement. The Credit Union may make a reasonable charge for photocopies of
slips you may request.
We may issue Cash Back Visa Convenience Checks to you which may be used to
obtain cash advances. Each Convenience Check will contain your Credit Union
member number and may be used only by the person whose name is printed on
it. Each must be completed and signed in the same way as a regular personal
check. You may not use a Cash Back Visa Convenience Check to pay any amount
owed to us on this credit card agreement or any other APGFCU credit card or
loans you may have with us.
If you give your account number to make a purchase or obtain a cash advance
without presenting the card (such as for online, mail order or telephone
purchase), the legal effect will still be the same as if the card itself was used
by you.
We are not responsible if anyone refuses to honor your credit card or Convenience
Check.
16. Prohibited Use of the Card: You may not use your card to buy lottery
tickets, place bets or gamble if these transactions are made online. You also may
not use your card for any illegal transactions.
17. Stop Payment: If before a Balance Transfer or Convenience Check drawn
on your Account has been honored, you notify us not to pay it, we will stop
payment on the check. You must send us a written and signed stop payment
order which states the number, payee, amount, and date of the check on which
payment is to be stopped. We may disregard any such order six months after our
receipt unless you renew your request.
18. Returns and Adjustments: Merchants and others who honor the card
may give credit for returns or adjustments, and they will do so by sending us a
credit which will be posted to your account. If your credits and payments exceed
what you owe us, we will hold and apply this credit balance against future
purchases and cash advances, or refund it and transfer the credit balance to
your share account.

Page 2 of 4

19. Foreign Transactions: Purchases and cash advances made in foreign
countries and foreign currencies will be billed to you in U.S. dollars. The
conversion rate to dollars and the fees for all international transactions will be in
accordance with the operating regulations of Visa USA, Inc. The exchange rate
between the transaction currency and the billing currency used for processing
international transactions is a rate selected by Visa from the range of rates
available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate Visa itself receives, or the governmentmandated rate in effect for the applicable processing date. In addition, a fee of
1% of the transaction amount may be charged on all international transactions
regardless of whether or not currency conversion is involved.

Cash Back awards paid will be disclosed on your credit card statement for the
previous month. There is no minimum or maximum award you may earn. Cash
back awards earned will be paid in U.S. Dollars and rounded to the nearest cent.
Account adjustments, returns, credits, disputes may affect the amount of any
Cash Back award paid.

20. Plan Merchant Disputes: We are not responsible for the refusal of any
plan merchant or financial institution to honor your card. We are subject to
claims and defenses (other than tort claims) arising out of goods or services
you purchase with the card only if you have made a good faith attempt, but
have been unable to obtain satisfaction from the plan merchant, and: (a) your
purchase was made in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50 and was made from a plan
merchant in your state or within 100 miles of your home. Any other disputes you
must resolve directly with the plan merchant.

APGFCU reserves the right, at its sole discretion, to disqualify any card member
from receiving Cash Back awards and to forfeit any and all Cash Back awards
earned but not yet paid for abuse, fraud, lottery, gaming or any violations of
the Credit Card Disclosure Statement and Agreement. If you dispute any aspect
with respect to your Cash Back Visa account, including a dispute regarding the
amount of awards earned or deposited, you must notify us in writing at APG
Federal Credit Union, P.O. Box 1176, Aberdeen, MD 21001, within sixty (60) days
of the date of the first Cash Back Visa account statement to which your award
dispute relates. If you do not properly notify us in this time frame, we will have
no obligation to you to adjust any error.

21. Effect of Agreement: This Agreement is the contract which applies to all
transactions of your account even though the sales, cash advance, balance
transfer or convenience checks you sign may contain different terms. We may
amend this Agreement from time to time by sending you advance written
notice required by law. The Amendment will become effective on the effective
date stated in the notice. Use of your card after receiving notice of a change
will further evidence your agreement to the change. If you give us written
notice that you do not agree to the change, we will terminate your account and
you will be permitted to pay the outstanding balance as of the effective date
under the terms of the Agreement governing your account at the time our
notice was given. If you use your card after the effective date of this Agreement
or any Amendment, you will be considered to have agreed to the new terms
even if you have sent us such written notice. To the extent the law permits, and
we indicate in our notice, amendments will apply to your existing account
balance as well as future transactions.
22. Notices: We mail you statements and notices through the U.S. Mail,
postage prepaid, and address them to you at the latest billing address on our
records or, if you’ve agreed, by email to the address you gave us. Any notice
that we send you through the U.S. Mail is deemed to be given when deposited
in the U.S. Mail. We consider an electronic notice sent as soon as we email it,
unless we receive notification that the email was undeliverable. You must notify
us immediately if you change the address to which we send billing statements.
If you have more than one account you must notify us and we will change the
address on all accounts. We may update your billing address if we receive
information that it has changed or is incorrect.
23. No Waiver: The Credit Union can delay enforcing any of its rights any
number of times without waiving them.
24a. Cash Back Awards: Your APGFCU Cash Back Visa official rules and
important terms associated with the use of the card and payment of the Cash
Back award, including provisions related to eligible transactions, payment of cash
awards and other important conditions and limitations are detailed below.
You must be an individual and use the account only for personal, family or
household expenses. Corporations, partnerships and other entities may not
participate. Your account must be open and in good standing to earn Cash Back
awards. By signing, accepting or using the Cash Back card, the primary card
member constitutes acceptance of these terms and conditions.
Cash Back awards have no cash value or value of any kind until they are
deposited into your share account as dollars earned. You are solely responsible
for any taxes that may be owed as a result of receiving Cash Back awards.

Balance transfers, cash advances (or cash equivalent transactions such as the
purchase of foreign currency), money orders, travelers cheques, prepaid cards,
cashier’s checks, convenience checks, ATM cash disbursements, loan payments,
fees, interest charges and disputed or unauthorized/fraudulent transactions are
not considered purchases and will not earn Cash Back awards.

24b. Cash Back Restrictions or Forfeiture: You may not earn Cash Back
awards during any statement period in which the following occur:
• Your account is in default as outlined under your credit card agreement
with us.
• You or any Authorized User engage in any fraudulent activity on this
account.
• You engage in any illegal activity through the use of your account or engage
in activity that is deemed to be abusive or gaming conduct, as determined
by us in our sole discretion.
• You or we close your account for any reason; all earned but not paid Cash
Back awards will be forfeited.
We may, at our sole discretion, cancel, modify, restrict or terminate the Cash
Back card awards program or any aspects of the Cash Back card at any time
without prior notice. All interpretations of these Cash Back Visa rules shall be at
our sole discretion. These official rules and important terms do not apply to any
other Visa product offered by APGFCU.
The program information is subject to change.
25. How We May Contact You: You expressly agree in order for APGFCU to
provide information about your account and obtain any payment for amounts
you may owe APGFCU, we or our authorized parties may contact you and send
text messages to you. We may use pre-recorded/artificial voice messages
or an automated dialing device to contact you at any telephone number
associated with your APGFCU account, including mobile numbers, as permitted
by applicable law. You also expressly agree that we may email you at any email
address you have provided us.
26. Governing Law: This agreement is governed by the Annotated Code
of Maryland, Financial Institutions Article, Title 6 and the Annotated Code of
Maryland, Commercial Law Article, Title 12, Subtitle 9 and applicable federal
law or regulation.

You will earn 1.5% Cash Back awards for each one dollar ($1.00) of all new retail
purchases less credits, returns and adjustments (“Net Purchases”) charged in a
statement period made by you and/or any Authorized User of the card. Cash
Back awards will be posted to the primary card member’s regular share account
on the next business day following the end of your credit card statement period.

Page 3 of 4

Your Billing Rights: Keep this Document for Future Use This notice tells
you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
APG Federal Credit Union, P.O. Box 1176, Aberdeen, MD 21001
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong. You must
notify us of any potential errors in writing. You may call us, but if you do
we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will send
you a statement of the amount you owe and the date payment is due.
We may then report you as delinquent if you do not pay the amount we
think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.

If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
APG Federal Credit Union, P.O. Box 1176, Aberdeen, MD 21001
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.
In case of errors or questions about your electronic funds transfer (Federal
Electronic Funds Transfer Act) call us at 410-272-4000 or toll-free at 800225- 2555. TTY: 800-811-4888. Or write us at APG Federal Credit Union, P.O.
Box 1176, Aberdeen, Maryland 21001-6176, as soon as you can, if you think
your statement or receipt is wrong or if you need more information about a
transfer listed on the statement or receipt. We must hear from you no later
than 60 days after we sent the FIRST statement on which the problem or error
appeared.
1. Tell us your name and account number (if any).
2. Describe the error or the transfer you are unsure about, and explain as
clearly as you can why you believe it is an error or why you need more
information.
3. Tell us the dollar amount of the suspected error.
If you tell us orally, we may require that you send us your complaint or question
in writing within ten (10) business days. We will determine whether an error
occurred within ten (10) business days (20 business days if the transfer involved
a new account) after we hear from you and will correct any error promptly.
If we need more time, however, we may take up to 45 days (90 days if the
transfer involved a new account, or a foreign initiated transfer) to investigate
your complaint or question. If we decide to do this, we will credit your account
within 5 business days (20 days if the transfer involved a new account) for the
amount you think is in error, so that you will have the use of the money during
the time it takes us to complete our investigation. If we ask you to put your
complaint or question in writing and we do not receive it within 10 business
days, we may not credit your account. An account is considered a new account
for 30 days after the first deposit is made, if you are a new member.
We will tell you the results within three business days after completing our
investigation. If we decide that there was no error, we will send you a written
explanation. You may ask for copies of the documents that we used in our
investigation.
Automatic Payment Transfers
If you have authorized us to pay your credit card bill automatically from your
Share or Checking account, you can stop the payment on any amount you
think is wrong. To stop the payment your letter must reach us three business
days before the automatic payment is scheduled to occur.

If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase. To use this right, all of the following must be true:
• The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
• You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your credit
card account do not qualify.
• You must not yet have fully paid for the purchase.
VD-CBV-DIS-031721
Page 4 of 4

Federally insured by NCUA

Security Interest Disclosure
I/we acknowledge and pledge, as a condition of my/our use of the APGFCU credit card, that I/we
have voluntarily granted APGFCU a security interest in all my/our individual and joint shares, share
draft and share certificates now or in the future held at AGPFCU. If my/our credit card loan becomes
delinquent, this security interest may be used without further notice to pay all or any part of such
delinquency. This security interest does not apply to shares in an IRA, Keogh, or similar tax deferred
account.
In addition, I/we acknowledge that the Federal Credit Union Act (12 U.S.C. 1757 (11)) secures all
amounts owed APGFCU for use of this credit card by me/us or any authorized user and may be
applied upon default against any of my/ours shares, share draft or share certificate account balances
without further notice to pay all or any part of such delinquency. This security interest does not apply
to shares in an IRA, Keogh or similar tax deferred account.

VD-CBV-DIS-031721
Page 1 of 1

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
Cash Back Visa

Annual Percentage Rate (APR) for Balance
Transfers

0% introductory APR for 15 months for purchases made within the first 90 calendar
days from account opening. After that, and for purchases completed after the first 90
calendar days, your standard APR will apply based on your creditworthiness at the time
you opened your account. This APR will vary with the market based on the Prime Rate.

11.24% – 17.49%

0% introductory APR for 15 months from the date of account opening for balance
transfers submitted within the first 90 calendar days from account opening. Balance
transfer approval conditions apply.
After that, and for balance transfers completed after the first 90 calendar days, your APR
will be 11.24% to 17.49% based on your creditworthiness at the time you opened your
account. This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR) for Cash
Advances and Convenience Checks

11.24% – 17.49%
Your APR will be based on your creditworthiness at the time you open your account. This
APR will vary with the market based on Prime Rate.

Penalty APR and When It Applies

18.00%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you interest on purchases if you pay the entire balance by the due date each month. We
will begin charging interest on balance transfers, cash advances and overdraft advances,
if enrolled, on the transaction date.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR may apply to your account if you:
• Are over 60 days past due; or
• Make a payment that is returned and causes your account to be over 60 days past due.
How long will the Penalty APR apply? If your APRs are increased for either of these
reasons, the Penalty APR may apply indefinitely.

Fees
Annual Fee
Transaction Fees
• Cash Advance
• Foreign Transaction
• Balance Transfer

Penalty Fees
• Late Payment
• Returned Payment

None
• $2
• up to 1% of transaction amount in U.S. dollars
• 3% of the amount of each balance transfer transaction will be assessed to your
account upon posting for all balance transfer requests submitted within the first 90
calendar days of account opening at the 0% introductory APR.
• There is no balance transfer fee for all balance transfer requests submitted and
posted to your account after 90 calendar days of account opening, and you will be
charged your standard variable rate APR.
• $25
• $20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your account
agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.
Variable Rate Information: Variable APRs are based on the 3.25% Prime Rate as of 04/01/2021. Your APR may vary. Rates are
determined and adjusted monthly, according to your statement cycle period, by adding a Margin to the Prime Rate published in the Wall
Street Journal on the first business day of every month. The Margin will range from 7.99% to 14.24% based on an evaluation of each
member's credit history and product type.
Balance transfers will be applied to your account and sent to your designated payee(s) 10 days after we open your new account. If
you want to cancel or modify your balance transfer within the first 10 days of account opening, please call
1-800-225-2555. Please continue to make regular payments to your other account(s) until you know the balance has been paid.
This disclosure was printed and is accurate as of 04/01/2021 and is subject to change after that date. To find out what may have
changed, or if you have any questions regarding this disclosure, call toll free 1-800-225-2555 or 1-800-811-4888 TTY.
Page 1 of 1

VD-CBV-DIS-031721

Terms and Conditions of Balance Transfer Offer for
New APGFCU Visa® Accounts
• 0% introductory APR for 15 months from the
date of account opening for balance transfers
submitted within the first 90 calendar days from
account opening for Cash Back, Platinum Preferred,
Platinum Preferred Rewards and Platinum Preferred
Student/Starter Visa cards.

• APGFCU is not responsible for any payments
being late, lost in the mail or for any finance or
other charges that may occur due to a delay in
processing a balance transfer request.

• After 15 months, your introductory rate will end
and your standard cash advance rate will apply.

• Balance transfers are always subject to Finance
Charges from the date they are posted to your
account to the date on which they are paid in full.

• 3% of the amount of each balance transfer
transaction will be assessed to your account upon
posting for all balance transfer requests submitted
within the first 90 calendar days of account
opening at the 0% introductory APR.
• There is no balance transfer fee for all balance
transfer requests submitted and posted to your
account after 90 calendar days of account opening,
and you will be charged your standard variable rate
APR.
• You authorize APGFCU to pay off the balances or
portions of the balances due on the credit cards/
charges/loans listed within this online form or
verbally by means of a Balance Transfer charged to
your APGFCU Visa account. There is no limit to the
number of transfers permitted up to your approved
credit limit.
• You understand the balance transfer request we
approve for you may not ultimately pay your total
balance due with the other creditor, which may
result in outstanding charges imposed by the
other creditor. It is your responsibility to make
timely payments to your other creditor. You should
continue to make payments to these other credit
card or loan issuers until the balance transfer is
reflected on your account with us as a payment
made by us to your creditor. All balance transfers
are paid by us directly to the other creditor.

• Balances transferred will not receive a balance
transfer cash rebate or reward points.

• You must pay in full the entire balance (including
balance transfers and new purchases) by the end
of each payment cycle to avoid accruing interest on
purchases.
• Each balance transfer will reduce your available
credit. We will process the requested balance
transfers in the order you submit them to us.
Should there be an insufficient credit limit on your
account with us, you understand we will pay off
the balances of other creditors only up to the
amount of the available credit limit you have with
us, which could result in only a partial payment
of the remaining account balances with the other
creditor.
• The total amount(s) of your request cannot exceed
your available credit with us. Should the request
exceed the available credit, we will decline the
request and you will have the option to apply for
a credit limit increase. APGFCU reserves the right
to refuse to honor any request for a credit limit
increase. You should not transfer from another
creditor the amount of any disputed purchases or
other charges. If you do, you may lose your right
to dispute the charges with that other creditor.
• This offer cannot be combined with any other
balance transfer offers. We will not process any
balance transfer requests that are from any other
account or loan issued by APGFCU.
VD-CBV-DIS-031721

Page 1 of 1

